U.S. Department of the Interior
Office of Inspector General




         SPECIAL REPORT


      BIENNIAL REPORT ON THE
FEDERAL ROYALTY MANAGEMENT SYSTEM
   FOR FISCAL YEARS 1996 AND 1997

             REPORT NO. 98-I-708
              SEPTEMBER 1998
                                                                            C-IN-MOA-00 l-96
              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240




                                                                 SEP 3olQm
Memorandum

To:       The Secretary




Subject: Biennial Report on the Federal Royalty Management System for Fiscal Years1 996
         and1997 (No. 98-I-708)

This is the seventh biennial report issued by the Office of Inspector General. This report was
prepared in accordance with Section 302(b) of the Federal Oil and Gas Royalty Management
Act of 1982, which requires the Office of Inspector General to conduct a biennial audit of
the Federal Royalty Management System and report the results to the Congress and the
Secretary of the Interior. We prepared this report based on the results of eight audit reports,
one evaluation report, and one investigative initiative completed by the Office of Inspector
General and one audit report issued by the General Accounting Office.

Based on our reviews of the Royalty Management System, we concluded that the Minerals
Management Service and the Bureau of Land Management had made improvements in
collecting mineral lease revenues. Specifically, the adequacy of minimum bonus bids and
annual rental fees was evaluated before each lease sale to ensure that the Federal Government
received fair value for offshore oil and gas leases. We estimated that this improvement will
result in increased lease revenues during 1998 through 200 1 of about $194 million.

However, to adequately protect mineral resources and further enhance royalty collections,
the Service needs to make improvements in cost sharing deductions from states’ mineral
leasing receipts and in operating, testing, supporting, and controlling automated information
systems.

In terms of revenues, the Department of the Interior collected royalties, rents, and bonuses
of $4.7 billion in fiscal year 1996 and $6.2 billion in fiscal year 1997. Some of these
revenues were generated from Service, state, and tribal audits of royalty payors. Specifically,
Service audits of royalty payors resulted in the collection of royalties and the denial of refund
requests totaling $39.7 million ($38.7 million in audit collections and $1 million in denials
of refund requests) in fiscal year 1996 and $40.1 million in audit collections (there were no
denials of refund requests) in fiscal year 1997. State and tribal audits of royalty payors
resulted in the collection of an additional $9.5 million in fiscal year 1996 and $9.5 million
in fiscal year 1997.

This report does not make any new recommendations because each of the 10 audit and
evaluation reports contained recommendations to the appropriate Departmental officials at
the time each report was issued. The Department generally has been responsive to the audit
recommendations and has made the improvements to the Royalty Management System that
were suggested. In addition, the Service provided a synopsis (Appendix 4) that it prepared
of its Royalty Management Program accomplishments during this biennial period. The
Service and the Bureau, through the Assistant Secretary for Land and Minerals Management,
also provided comments on the report in August 17 and September 14, 1998, memoranda,
which we considered and incorporated into this report as appropriate.




cc: Assistant Secretary for Land and Minerals Management
    Assistant Secretary for Indian Affairs
                                                CONTENTS

                                                                                                                      Page
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
        OBJECTIVE AND SCOPE ......................................... 1

RESULTS OF BIENNIAL REVIEW FOR
  FISCALYEARS1996AND1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

        A. IMPROVEMENTS MADE IN THE ROYALTY
             MANAGEMENT     SYSTEM              .................................... 3
        B. IMPROVEMENTS NEEDED IN THE ROYALTY
             MANAGEMENT SYSTEM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
        C. ADDITIONAL ROYALTY MANAGEMENT SYSTEM ISSUES . . . . . . . 6

APPENDICES

        1. AUDIT AND EVALUATION REPORTS ISSUED . . . . . . . . . . . . . . . . . . . 8
        2. ESTIMATED DOLLAR IMPACT OF REPORTS INCLUDED IN
            THE BIENNIAL REPORT FOR FISCAL YEARS 1996 AND 1997 . . . . 9
        3. STATUS OF PRIOR REPORT RECOMMENDATIONS . . . . . . . . . . . . . 10
        4. SYNOPSIS OF ACCOMPLISHMENTS OF THE MINERALS
            MANAGEMENT SERVICE’S ROYALTY MANAGEMENT
            PROGRAMFORFISCALYEARS 1996AND 1997 . . . . . . . . . . . . . . . 11
                                 INTRODUCTION

BACKGROUND

The Federal Oil and Gas Royalty Management Act of 1982 requires the Secretary of the
Interior to establish comprehensive inspection, fiscal and production accounting, collection,
and auditing systems. These systems are required to provide the capability to accurately
determine oil and gas royalties, interest, fines, penalties, fees, deposits, and other payments
owed and to collect and distribute such amounts in a timely manner.

To accomplish this requirement, the Secretary established the Royalty Management System
and assigned specific responsibilities to the Minerals Management Service, the Bureau of
Land Management, and the Bureau of Indian Affairs. The Minerals Management Service
is responsible for monitoring oil and gas production from Federal leases on the Outer
Continental Shelf, the Bureau of Land Management is responsible for monitoring oil and gas
production from onshore Federal and Indian leases, and the Bureau of Indian Affairs
distributes mineral revenues to individual Indians and tribes. Most of the royalty
management functions were assigned to the Service’s Royalty Management Program. The
overall mission of the Program is to ensure proper determination, collection, and distribution
of bonuses, rents, and royalties from Federal and Indian lands in a manner that maximizes
incentives to the efficient management, production, and use of oil, gas, coal, and other
mineral resources consistent with public health and safety, environmental, and public land
use requirements.

The policies and procedures for the Royalty Management System are delineated in public
laws and Departmental regulations, including the Allotted Indian Land Leasing Act of 1909,
as amended; the Mineral Leasing Act of 1920, as amended; the Indian Mineral Leasing Act
of 1938; the Minerals Leasing Act for Acquired Lands of 1947, as amended; the Outer
Continental Shelf Lands Act of 1953, as amended; the Geothermal Steam Act of 1970; the
Combined Hydrocarbon Leasing Act of 198 1; the Indian Mineral Development Act of 1982;
the Federal Oil and Gas Royalty Management Act of 1982; the Federal Oil and Gas Leasing
Reform Act of 1987; and the Federal Oil and Gas Royalty Simplification and Fairness Act
of 1996.

OBJECTIVE AND SCOPE

The Federal Oil and Gas Royalty Management Act of 1982, Section 302(b), requires the
Office of Inspector General to perform a biennial audit of the Federal Royalty Management
System and to submit the results of such audit to the Congress and the Secretary. This
biennial report of the Royalty Management System is the seventh of such reports and covers
the biennial period of October 1, 1995, through September 30, 1997 (fiscal years 1996 and
1997).
The overall objective of this biennial review was to determine the Department’s compliance
with the Federal Oil and Gas Royalty Management Act of 1982. This was accomplished by
the Office of Inspector General through its conduct of one evaluation and eight audits, seven
on the Minerals Management Service and two on the Bureau of Land Management, and
through a joint investigative initiative involving both the Service and the Bureau. Since the
Royalty Management System consists of various components such as leasing, inspection,
production and royalty accounting, royalty collection and distribution, and auditing, we
selectively reviewed activities of these components. We considered factors such as
materiality, degree of risk, prior audit coverage, and current information regarding the
activity in selecting the specific activities to be reviewed in this biennial period. We also
considered the results of a General Accounting Office audit of costs for onshore minerals
leasing programs. The reports included in this biennial report are listed in Appendix 1.
                  RESULTS OF BIENNIAL REVIEW
                 FOR FISCAL YEARS 1996 AND 1997
Based on a review of eight Federal Royalty Management System audits, one evaluation, and
one investigative initiative conducted during the biennial period, we concluded that the
Minerals Management Service and the Bureau of Land Management had made
improvements in the System since the last biennial report that should increase mineral lease
collections and enhance payer/producer compliance with existing regulations. However,
additional improvements are needed to adequately protect mineral resources and further
enhance royalty collections. Specifically, improvements are needed in the following areas:
(1) computation of cost sharing deductions from states’ mineral leasing receipts,
(2) operation of automated information systems, (3) application software testing and support,
and (4) general controls over automated information systems.

Office of Inspector General audit and evaluation reports issued on the Royalty Management
System during this period identified a total monetary impact of about $2 17.9 million, which
was classified as potential additional revenues ($214.7 million) and funds to be put to better
use ($3.2 million) (see Appendix 2).

Regarding the nine reports issued by the Office of Inspector General during this biennial
period, one audit report and one evaluation report identified improvements made in the
Royalty Management System, four audit reports presented opinions on the annual financial
statements of the Service and the Bureau, and three audit reports identified areas needing
improvement in the Royalty Management System.                   These reports contained
33 recommendations for improvement, of which 3 remain unresolved (see Appendix 3).
These reports are synopsized in Sections A and B. Additionally, synopses of additional
Royalty Management System issues regarding the Office of Inspector General’s
underpayment of royalties initiative and the General Accounting Office’s review of costs for
onshore minerals leasing programs are presented in Section C.

A.     IMPROVEMENTS MADE IN THE ROYALTY MANAGEMENT
       SYSTEM

Peer Review

In our report “External Quality Control Review of the Audit Divisions, Minerals
Management Service” (98-I-398), issued in April 1998, we concluded that the Service was
performing audit work that was generally in compliance with the Service’s Audit Procedures
Manual and with the “Government Auditing Standards,” issued by the Comptroller General
of the United States. Further, we found that the Service’s audits were conducted
professionally, audit conclusions were adequately supported, and auditors were usually
current in their continuing education requirements. Although we found minor deficiencies
in the areas of audit management, such as supervisory review of the auditors’ assessment of
compliance with laws and regulations, quality control, supervision, timeliness of report

                                              3
products, and working paper quality, we did not find that these weaknesses adversely
affected the Service’s audit findings and conclusions. The report did not contain any
recommendations.

Followup of Offshore Minerals Leasing Activities

In our March 1998 evaluation report “Followup of Offshore Minerals Leasing Activities”
(No. 98-I-385), which was a followup review of recommendations contained in our audit
report “Offshore Minerals Leasing Activities, Minerals Management Service”
(No. 94-I- 179), issued in December 1993, we found that the Service had acted expeditiously
to implement the recommendation to evaluate the adequacy of minimum bonus bids and
annual rental fees before each lease sale to ensure that the Federal Government received fair
value for offshore oil and gas leases. The Service’s implementation of the recommendation
resulted in increased rental fees per acre that generated an additional $141 million in lease
revenues between September 1993 and August 1997, which was $20.7 million more than the
estimate contained in Audit Report No. 94-I- 179. In our followup review, we estimated that
leases issued between September 1993 and August 1997 will generate an additional
$194 million in increased lease revenues during the period of 1998 through 2001. The
followup report did not contain any new recommendations.

Financial Reporting

Based on four audits of the financial statements of the Service and the Bureau, we concluded
that the combined financial statements and accompanying notes presented fairly the results
of financial operations for both the Service and the Bureau for this biennial review period.

Our audit reports “Minerals Management Service Financial Statements for Fiscal Years 1995
and 1996” (No. 97-I-445), issued in February 1997, and “Minerals Management Service
Financial Statements for Fiscal Years 1996 and 1997” (No. 98-I-382), issued in March 1998,
presented an unqualified opinion regarding the financial operations of the Service. The
audits found that the internal control structure in effect at year-end was sufficient to
safeguard assets against loss from unauthorized use or disposition; ensure that transactions
were executed in compliance with laws and regulations; ensure that transactions were
properly recorded, processed, and summarized; and provide reasonable assurance that any
losses, noncompliance, or misstatements that are material to the financial statements would
be detected. The reports did not contain any recommendations.

Our January 1997 report “Bureau of Land Management Combined Comparative Financial
Statements for Fiscal Years 1995 and 1996” (No. 97-I-3 19) and our January 1998 report
“Bureau of Land Management Consolidated Comparative Financial Statements for Fiscal
Years 1996 and 1997” (No. 98-I-234) presented an unqualified opinion on the Bureau’s
financial statements. We found that the Bureau’s financial statements were presented in
conformity with the accounting standards and policies described in the notes to the financial
statements and that supplemental financial statements were fairly stated in relation to the
financial statements taken as a whole. Additionally, we found that the Bureau’s internal

                                             4
control structure in effect at fiscal year-end was sufficient to safeguard assets against loss
from unauthorized use or disposition; ensure that transactions were executed in compliance
with laws and regulations; ensure that transactions were properly recorded, processed, and
summarized; and provide reasonable assurance that any losses, noncompliance, or
misstatements that are material to the financial statements would be detected. The reports
did not contain any recommendations.

B.     IMPROVEMENTS NEEDED IN THE ROYALTY
       MANAGEMENT SYSTEM

Three Office of Inspector General audit reports indicated that improvements were needed in
the Federal Royalty Management System as follows:

         - The Service and the Bureau need to improve the methodologies used in computing
cost sharing reductions to promote an equitable proration of mineral leasing program cost
recovery. In our October 1997 report “Costs Recovered Through Net Receipts Sharing
Deductions, Minerals Management Service and Bureau of Land Management” (No. 98-I-79),
we found that the cost sharing deductions were computed efficiently and deducted from the
states’ mineral leasing receipts on a timely basis. However, we noted inconsistencies in the
methods used to compute cost sharing deductions, which resulted in the inequitable
distribution of mineral leasing program costs. As a result, the costs deducted from states’
mineral leasing receipts during fiscal years 1994 through 1996 were overstated by
$8.8 million, or about 11.6 percent. We recommended that the Service and the Bureau
establish consistent policies and procedures to guide the net receipts process and to improve
communication with the states. The Service responded to our recommendation by stating
that it had requested and received Congressional approval to use one cost pool for the states’
computations and that this would help to prevent the overcharging of cost deductions to the
states. We further recommended that the Bureau obtain a Solicitor’s opinion on whether
preleasing costs were allocable deductions to the states. Regarding the preleasing costs, the
Bureau subsequently obtained a Solicitor’s opinion dated April 14, 1998, which stated that
preleasing costs are deductible. Regarding the cost pool, the Service, in an August 17,1998,
memorandum, stated that it had completed the project of consolidating and updating its
policies and procedures, had provided copies to the Bureau of Land Management and the
Forest Service, and had presented the revised procedures to the State and Tribal Audit
Committee at a June 1998 meeting.

        - The Service needs to improve the efficiency of its automated information systems
bv applving modem designs and processes. and the Service needs to ensure that application
software is adequatelv tested and documented. In our July 1997 report “The Royalty
Management Program’s Automated Information Systems, Minerals Management Service”
(No. 97-I- 1042), we found that the Service was using outdated and inefficient data structures
which were difficult to change and improve. Additionally, the Service did not test its
application software programs sufficiently to ensure the operational effectiveness of the
software programs. We also found that the Royalty Program’s automated systems were not
adequately documented in accordance with established standards. As a result of these

                                              5
deficiencies, the Program unnecessarily incurred about $3.2 million annually for contractor
support of the automated systems and for added work to detect and correct errors and
problems in application processing. Our report contained seven recommendations to
improve the Service’s automated information systems processing. We considered one
recommendation resolved and implemented and six recommendations resolved but not
implemented. The unimplemented recommendations were referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation.

        - The Service needs to improve the general controls over its automated information
systems. Our March 1998 report “General Controls Over the Automated Information
System, Royalty Management Program, Minerals Management Service” (No. 98-I-336)
stated that the Service had established general controls over its automated information
systems but that these controls were inadequate in the areas of risk assessment; security
policies, procedures, and awareness; logical access controls; software change control
practices; separation of duties; use of available mainframe security software; and inclusion
of appropriate hardware and software systems in the Program’s disaster recovery plans.
These weaknesses increased the risk of unauthorized access, modification, and disclosure of
Program data; theft and destruction of software and sensitive information; and potential loss
of Program system and function capability in the event of a disaster or system failure. Our
audit report contained 23 recommendations to the Service to improve the controls over the
Program’s automated information. While the Service strongly disagreed with the
“characterizations” that general controls over automated systems were inadequate as
presented in the report, the Service agreed to at least partially implement 20 of the
23 recommendations. The three unresolved recommendations concerned security-related
personnel policies and procedures and classifications of sensitive computer resources. The
Service stated that existing controls and classifications were adequate. The three
recommendations have been forwarded to the Assistant Secretary for Policy, Management
and Budget for audit resolution.

c.     ADDITIONAL ROYALTY MANAGEMENT SYSTEM ISSUES

Underpayment of Royalties Initiative

In a major initiative undertaken by the Office of Inspector General, in conjunction with the
Fraud Section, Civil Division, U.S. Department of Justice, and various U.S. Attorneys’
offices throughout the United States, the Office of Inspector General has identified and
investigated fraudulent royalty underpayments on Federal mineral leases.

For example, the Office of Inspector General, the Bureau of Land Management, and the
Minerals Management Service joined forces during 1997 with the U.S. Attorney’s Office,
Civil Division, District of New Mexico, Albuquerque, New Mexico, in a joint investigation
into allegations that a Texas oil company defrauded the Service by not paying royalties due
on condensate produced on land leased from the Bureau in southeastern New Mexico
between 1988 and 1994. The production of the unreported condensate was discovered by
a Bureau inspector who was responding to an oil pipeline break on the Bureau lease. An

                                             6
Office of Inspector General investigator and Bureau and Service personnel subsequently
conducted reviews of oil production and purchasing records that verified that more than
$40,000 in condensate had been produced and sold. However, the company reported to the
Service that no production of condensate had occurred and that therefore no royalties were
due the Service.

Based on the results of the investigation, the U.S. Attorney’s Office took action against the
company under the Affirmative Civil Enforcement program, which provides for treble
damages under the False Claims Act in civil false claims against the Government. The
U.S. Attorney’s Office notified the oil company that the Government would seek civil
recoveries and treble damages in Federal district court if the company did not reach a
settlement agreement with the Government. In April 1997, the oil company, while admitting
no wrongdoing, agreed to a civil settlement to pay $200,000 to the Government.
Additionally, the company agreed to file corrected production reports for the leases affected.

Costs for States’ Onshore Programs

The Congress asked the General Accounting Office to determine whether the costs borne by
Wyoming, New Mexico, and California for managing Federal minerals were comparable to
the costs for these states’ own minerals programs.

The General Accounting Office’s February 1997 report “Minerals Management, Costs for
Onshore Minerals Leasing Programs in Three States” (No. GAORCED-97-31) stated that
states received about half of the $936 million generated by the development of Federal
onshore leaseable minerals nationwide in fiscal year 1996. According to the report, the
Federal Government spent nearly $114 million to administer its onshore leaseable minerals
program in fiscal year 1996, and the states will repay the Federal Government $22 million
(about 19 percent) of that amount. The report further stated that in fiscal year 1996,
Wyoming, New Mexico, and California received almost $358 million in revenues from
Federal onshore leaseable minerals and that those states have paid almost $14.6 million
(about 4 percent) of the Federal Government’s fiscal year 1996 onshore minerals leasing
program costs. The report also stated that onshore development on land owned by the three
states generated combined revenues of $148 million in fiscal year 1996 and that the states’
combined costs for managing onshore mineral development, which included development
of private lands, totaled about $19 million (about 13 percent).

The report stated that because ofdifferences between Federal and state programs and because
the states reviewed did not have similar land use planning processes, the program costs of
the three states could not be “meaningfully compared.” The report did not contain any
recommendations.




                                              7
                                                                             APPENDIX 1


                 AUDIT AND EVALUATION REPORTS ISSUED

Report
Number                         Title                                     Issue Date

OFFICE OF INSPECTOR GENERAL

   MINERALS MANAGEMENT SERVICE

98-I-398     External Quality Control Review of the Audit Divisions    April 1998

98-I-385     Followup of Offshore Minerals Leasing Activities          March 1998

97-I-445     Minerals Management Service Financial Statements          February 1997
             for Fiscal Years 1995 and 1996

98-I-382     Minerals Management Service Financial Statements          March 1998
             for Fiscal Years 1996 and 1997

98-I-79      Costs Recovered Through Net Receipts Sharing Deductions   October 1997

97-I- 1042   The Royalty Management Program’s Automated                July 1997
             Information Systems

98-I-336     General Controls Over the Automated Information System,   March 1998
             Royalty Management Program

   BUREAU OF LAND MANAGEMENT

97-I-319     Bureau of Land Management Combined Comparative            January 1997
             Financial Statements for Fiscal Years 1995 and 1996

98-I-234     Bureau of Land Management Consolidated Comparative        January 1998
             Financial Statements for Fiscal Years 1996 and 1997


GENERAL ACCOUNTING OFFICE

   MINERALS MANAGEMENT SERVICE

RCED-97-3 1 Costs for Onshore Minerals Leasing                         February 1997
            Programs in Three States

                                              8
                                                                                                       APPENDIX 2


                        ESTIMATED DOLLAR IMPACT
                       OF REPORTS INCLUDED IN THE
              BIENNIAL REPORT FOR FISCAL YEARS 1996 AND 1997


Report                                                              Funds To Be Put           Potential Additional
Number                Report Title                                   To Better Use                 Revenues


98-I-385         Followup of Offshore Minerals Leasing                                           $2 14.7 million*
                 Activities

97-I- 1042       The Royalty Management Program’s                      $3.2 million
                 Automated Information Systems,
                 Minerals Management Service




* Multiyear. Of this amount, $20.7 million was identifiable to a recommendation made in Audit Report No. 94-I- 179.
issued in December 1993. This additional revenue was derived based on data obtained during our followup evaluation
(Report No. 98-I-385, issued in March 1998) in which we found that the Minerals Management Service’s
implementation of the recommendation resulted in increased revenues.

                                                           9
                                                        APPENDIX 3


              STATUS OF PRIOR REPORT RECOMMENDATIONS


                                              Recommendations
  Addressee of              Recommendations   Concurred With/
Recommendations                  Made           Resolved

Director, Minerals
Management Service               31                28

Director, Bureau of Land
Management                       2                 2

   Total




                                  10
                                                                                    APPENDIX 4
                                                                                    Page 1 of 7




                   MINERALS MANAGEMENT SERVICE
                 ROYALTY MANAGEMENT PROGRAM (RMP)
                                FISCAL YEARS 1996 AND I997
                                  Synopsis of Accomplishments

OVERVIEW

The RMP collects, verifies, and distributes mineral revenues from Federal and Indian lands. In
1997, we distributed $6.2 billion mineral revenues from about 112,000 leases to 38 states,
42 Tribes, about 20,000 Indian allottees, the U.S. Treasury, and other Federal agencies. During
fiscal year 1997 and 1996 disbursements totaled $6.2 billion and $4.9 billion respectively. Our
goal is to provide timely, accurate, and cost effective revenue collection and disbursement
services to our customers. To accomplish this goal, we:

               Assist and encourage royalty payors to submit royalty reports and payments
               correctly the first time.

               Streamline and simplify royalty collection and disbursement processes whenever
               possible.

               Use modem information management tools to improve the royalty collection and
               disbursement processes.

               Involve stakeholders in decision-making, and make decisions by consensus
               whenever possible.

ASSISTING ROYALTY PAYORS

As part of our efforts to improve reporting, we continued to provide on-site reporter training to
oil, gas, and solid mineral companies in cities where their offices are located. To concentrate on
reporter assistance rather than assessments, we stopped issuing bills to companies for filing
royalty and production reports late or erroneously during fiscal year 1996. On August 13, 1996,
The Federal Oil and Gas Royalty Simplification and Fairness Act of 1996 (RSFA) extended the
assessment moratorium through March 1, 1998.

Rovaltv and production reportine accuracy
We review royalty and production report lines with a series of critical system edits. These edits
assure reported information is consistent with key reference data to permit correct disbursement
of revenue. Lines rejected by system edits must be corrected manually before disbursement
functions can resume. For example, if the reported lease number is invalid, our system rejects
the line. Correct disbursement of lease revenue is impossible without a valid lease number.
Lower error rates indicate reporters are better at meeting data requirements. The 1997 and 1996


                                                 1

                                               11
I
                                                                                       APPENDIX 4
                                                                                       Page 2 of 7



    error rates were 3.0 and 2.4 percent for royalty, and 3.0 and 2.9 for production, respectively.

    Compliance Verification and Audit
    An effective compliance program provides incentives for payors to “do it right the first time.”
    Our compliance verification and audit programs meet this need by providing reporting reviews
    and collections of under-payments we detect. As payors improve their first time payment and
    reporting, collections for these follow-up activities will decline. During 1997 and 1996 we
    collected $36.4 million and $33.2 million, respectively, from researching production and sales
    volumes, late payments, lease financial terms, allowances and adjustment variances.

    Our auditors conduct on-site studies of payors’ accounting records for underpayment discovery.
    During 1997 and 1996 RMP auditors collected $40.1 million and $39.7 million in additional
    revenues and denied refund requests.
                                 -
    Disbursements to States
    During 1996 and 1997, we timely disbursed 99 percent and 93 percent of States dollars,
    respectively. State disbursements were delayed during 1996 by the Federal Government
    shutdown. Less interest paid to States for late disbursements indicates more timely
    disbursements. For 1997, RMP paid $62,000 interest to States, and for 1996, $164,000.

    STREAMLINING AND SIMPLIFYING PROCESSES

    Rovaltv Policv Committee
    To obtain timely and constructive advice on collection policies and procedures, the Department
    of the Interior established the RPC as part of the Minerals Advisory Board in 1995. MMS
    believes it can best reinvent its activities and serve the needs of its customers by working closely
    with constituents. Accordingly, RPC includes representatives from States, Tribes, Indian
    allotteess, industry, Federal Agencies and the public. Six subcommittees reported to the RPC on
    issues including audit; report streamlining; disbursements to the States, Tribes and allottees and
    net revenue sharing; appeals, settlements and Alternative Dispute Resolution; phosphate, trona,
    and other leasable non-energy minerals; coal; and alternatives to conventional royalty collection
    methods. MMS began implementing most of the recommendations and is studying the
    feasibility of the others in conjunction with the work underway to implement RSFA.

    RSFA Implementation
    On August 13, 1996, the President signed RSFA into law. This legislation provides the
    framework for 1) additional delegations of royalty functions to States subject to Secretarial
    discretion, 2) enforcement definitions, 3) certainty for royalty payors with a 7-year statute of
    limitations for all royalty collections with liability limitations and a 33-month limit on all
    administrative appeals, 4) equity by requiring payment of interest on overpayments, 5) cost
    effective audit and collection activities, and 6) repeal of the outdated offshore refund
    requirements. MMS has identified several “critical events” that will be required to fully
    implement RSFA within the expected 3 years. Implementation is a very complex process

                                                        2



                                                   12
I   -.
                                                                                           APPENDIX 4
                                                                                           Page  3 of 7



         involving numerous rulemakings, computer systemsl modificati .ons, reporting changes with
         accompanying payor guidance, and new operational processes.

         Using insight gained from outreach sessions and issue-specific workshops with our State and
         industry constituents, MMS has made significant progress in implementing RSFA. We
         published the final rule for delegating functions to States on August 12, 1997, and with new
         software, began paying overpayment interest in April 1997 and accepting interest reporting in
         September 1997. On August 5, 1997, MMS published an Interim Final rule to match lessees and
         designated royalty payors, and the RPC formed a subcommittee to address related issues. Many
         other changes will be implemented through reengineering royalty management business
         processes and computer systems with cost-effective operational strategies and organizational
         structures for the future.

         Prowam Reewineerine Efforts
         Reengineering is focusing on long-range plans to substantially improve timely and accurate
         reporting, payment and verification of Federal and Indian mineral lease revenues. We
         established the Program Reengineering Office (PRO) to focus on long-range plans to
         substantially improve timely and accurate reporting, payment and verification of Federal and
         Indian mineral lease revenues. The PRO is maintaining continuous communication and
         coordination with all customers, stakeholders, and other interested parties to gain consensus on
         key decisions and assure continued participation and support. A Reengineering Technical
         Assistance Contract was awarded to Performance Engineering Corporation (PEC) on July
         15,1997 to conduct a technical assessment of the current system environment (report issued
         December 1997), and develop systems options to support redesigned business processes (report
         issued March 1998). PEC is assisting the reengineering team in establishing, operating and
         maintaining an automated environment where the new processes and technology can be rapidly
         prototyped and evaluated. The PRO issued a report presenting its preliminary design concepts
         for future business processes in March 1998, and is currently prototyping future technologies that
         will lead to a final design concepts report in the summer of 1998.

         USING MODERN INFORMATION MANAGEMENT TOOLS

         Electronic Commerce Technolow Development and Implementation
         The Royalty Management Program’s (RMP) target date for receiving 100 percent of its reports
         electronically is the end of Fiscal Year 1998. To assist reporters the RMP provides f?ee reporting
         software and many electronic reporting options that require minor conversion commitments. To
         encourage conversion, the RMP is drafting a proposed rule to require electronic reporting, which
         will include an exception for hardship cases.

         INVOLVING STAKEHOLDERS

         Federal Gas Valuation
         The Federal Gas Valuation Negotiated Rulemaking Committee (Committee), chartered by the




                                                        13
                                                                                  APPENDIX 4
                                                                                  Page 4 of 7



Secretary in June 1994, completed its work and published its final report in March 1995. The
Committee reached agreement on using an index-based methodology as a valuation option for

gas sold under arm’s_length nondedicated contracts and non-arm’s_length contracts in geographic
areas that meet certain criteria.

In light of the comments received from 44 entities, MMS reconvened the Committee on
June 12- 14, 1996, and asked the Committee to provide input into five options for proceeding
with further rulemaking. At the same time, MMS reopened the public comment period and
asked for public comment on the five options. The reopened comment period closed August 19,
1996. The MMS performed a cost benefit analysis on three viable options for proceeding with
gas valuation regulations. Given the results of the cost benefit analysis ($20 million annual loss
in royalties) and changes occurring the gas market, MMS withdrew the proposed rulemaking in
April 1997.

Indian Gas Valuation
The Indian Gas Valuation Negotiated Rulemaking Committee was established on
February 7, 1995, with a goal to publish regulations that will maximize royalty revenues for
Indian Tribes and allottees consistent with the Secretary’s discretion to establish value. The
Committee agreed on a formula to value gas produced from Indian lands (in areas with a valid
index) using publicly available spot market index prices and a discount factor. The formula-
derived price will be applied to the wellhead Mcf volume and will satisfy the gross proceeds and
major portion calculations required by lease terms. Under this scenario, filing of forms for
transportation allowances will not be necessary. Dual accounting requirements can be satisfied
in its current form or applying a percentage increase to the index formula value. For Indian lands
with no valid spot market index, lessees will continue monthly reporting of gross proceeds under
the 1988 regulations. The MMS will calculate and provide the major portion value to lessees.

The MMS published a proposed rule in the Federal Register on September 23, 1996, with a
comment period ending December 3, 1996 and reopened for 30 days on March 6, 1997. The
Indian Valuation Negotiated Rulemaking Committee reconvened on March 26, 1997. Industry
generally supports valuation based on the index-based formula and the optional alternative dual
accounting method. Industry strongly opposes the use of a safety net for non-dedicated sales and
to the establishment of a “minimum value” for gas plant products in actual dual accounting
situations.

Federal Crude Valuation Oil Rule
The current Federal oil valuation rules rely heavily on posted prices, which many believe
substantially understate market value. On December 20, 1995, MMS published an Advance
Notice of Proposed Rulemaking asking for comment on whether postings still represent market
value, and suggestions on alternative valuation bases. The comment period ended in March
1996. Based on these comments, on January 24, 1997, MMS published a proposed rule in the
Federal Register, with the comment period ending May 28, 1997. The intent of the proposed rule

                                                   4


                                              14
I
                                                                                        APPENDIX 4
                                                                                        Page 5 of 7



    is to reduce reliance on posted prices for royalty valuation, reflect true market value, provide
    certainty to all involved, and provide maximum flexibility to adapt to changing market
    conditions.

    On July 3, 1997, MMS published a supplementary proposed rule responding to the many
    comments received that the restrictions on what transactions could be considered arm’s length
    were too severe. The supplementary proposed rule limited some of those restrictions. The
    comment period closed August 4, 1997. On September 22, 1997, MMS published a notice
    requesting comments on five alternative proposals the were suggested in the comments received
    by MMS during the earlier proposals. Seven workshops involving States, industry, and the
    public were held during the comment period.

    Indian Oil Royalty Valuation Rules
    Due to the unique terms of Indian leases, MMS is developing a separate proposed rulemaking for
    valuing crude oil produced from Indian leases. On February 12-14, 1997, MMS met with Indian
    representatives to discuss initial proposals. MMS also arranged presentations by NYMEX and
    crude oil marketing expert Benjamin Johnson at the meeting. Based on MMS’s initial proposals
    and input received at the February meeting, MMS drafted a proposed rule published in the
    Federal Register on February 12, 1998, that would require payors to use the higher of 1) the
    average of the five highest daily NYMEX settle prices for the prompt month for that month’s
    production, adjusted for location and quality differentials, 2) the higher of the lessee’s or its
    affiliate’s arm’s_length gross proceeds less appropriate allowances, or 3) a major portion value
    calculated by MMS after the reporting month. The major portion value would be the price at
    which 75 percent (by volume) of the oil (starting from the lowest price) is bought or sold in the
    designated area--usually a reservation. Lessees initially would report royalties based on the
    higher of the NYMEX or gross proceeds value. If the subsequent MMS major portion value is
    higher, lessees would have to adjust their initially-reported value to that level.

    Differentials and refiner purchase prices would be derived from published data and information
    collected by MMS on a new form. Location differentials would be allowed from the reservation
    boundary to the index pricing point (Cushing, Oklahoma). The proposed rule also deletes the
    option for lessees in non-arm’s_length transportation situations to request use of their FERC
    tariffs in lieu of actual costs.

    OTHER ACCOMPLISHMENTS

    Performance Measurement Team
    In the Spring of 1996, MMS developed and issued its first MMS-wide long term strategic plan.
    During the development of the strategic plan, RMP formed a team to develop a performance
    measurement plan, as required by the Government Performance and Results Act (GPRA) for
    implementation at the beginning of fiscal year 1998. The RMP also participated in the GPRA
    pilot performance measurement program.




                                                   15
I
                                                                                      APPENDIX 4
                                                                                      Page 6 of 7



    The strategic plan includes performance objectives and measurement indicators linked directly to
    RMP’s mission goal, which is to “Provide timely, accurate, and cost-effective mineral royalty
    collection and disbursement services.” The performance objectives are:

                   improve the timeliness and accuracy of payments to States, Indian tribes, Bureau
                   of Indian Affairs offices, and other Federal agencies;

                   improve the cost effectiveness of mineral royalty collection and disbursement
                   services;

           l       improve reporters’ compliance with lease terms, rules, regulations, and laws;

           l       provide Indian tribes with increased opportunities for education and for assuming
                   functional responsibilities with respect to the Royalty Management Program; and

           l       improve customer service and communication.


    California Undervaluation
    In June 1994, the DO1 commissioned an interagency team to address possible under-payments of
    royalties on federal crude oil produced in and offshore California. The team issued its report on
    June 1996, and concluded that companies often received gross proceeds higher than the posted
    prices used as a basis for calculating royalties. This resulted in estimated underpayments
    including interest of $856 million. The MMS re-estimated the underpayment amount to be $440
    million. The reduction in estimate was primarily due to removing the volumes the federal
    government took as RIK and those volumes included in previously negotiated settlements.

    In late July 1996, The MMS initiated audits of the top 20 producers in California. This
    accounted for 97 percent of the oil producers in and offshore California, for the period from 1980
    through 1995. The MMS divided the producers into two groups; integrated - those who
    produced and refined oil; and non-integrated - those who only produced and sold oil. The
    valuation criteria used for the integrated producers was to apply ANS oil value, as adjusted for
    transportation and quality at Los Angeles, for the period through early 1988 and gross proceeds
    thereafter. The non-integrated producers oil was valued at the total gross proceeds for the entire
    period instead of the posted prices commonly used for royalty value. Total amount originally
    billed during this project equals $43 1.1 million. Reductions of $174 million for adjustments and
    other corrections leave a net outstanding balance of $257.1 million. All bills issued have been
    appealed. Two complaints have been filed by companies in the U.S. District Court, Northern
    District of Oklahoma, challenging the Government’s access to records and the validity of orders
    for additional royalties.

    Contract Settlements
    During the past 10 years, many gas (a few coal) purchasers, particularly pipeline companies,

                                                       6

                                                  16
                                                                                   APPENDIX 4
                                                                                   Page 7 of 7



negotiated with mineral producers to rescind, terminate, limit, or otherwise modify sales
contracts containing unrealistic purchase prices and/or volumes. In return, mineral producers
frequently received monies in settlement of the contractual obligations. Since these settlements
resulted in mineral producers receiving additional proceeds, audit determinations are necessary to
verify that, to the extent the payments were attributable production, appropriate royalties are paid
by the Federal and Indian leaseholders.

On August 27, 1996, a three judge panel of the U.S. Court of Appeals for the District of
Columbia Circuit ruled against DO1 in a contract settlement case. However, on April 14, 1997,
the Sixth Circuit, U.S. Court of Appeals, ruled in DOI’s favor on the same general issue, thus we
continue to believe that payments, made in settlement of contract disputes, are linked to
production and should be subject to royalty. Since many cases are nearing the 6-year record
retention period, contract settlements are an audit priority.

Our audit goal is to achieve a high level of coverage, auditing at least 90 percent of contract
settlement proceeds. This is consistent with historical coverage provided by contemporaneous
audits.




                                               17
               ILLEGAL OR WASTEF’UL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                   Calling:



                    Within the Continental United States

U.S. Department of the Interior                      Our 24-hour
Office of Inspector General                          Telephone HOTLINE
1849 C Street, N.W.                                  l-800-424-508 1 or
Mail Stop 5341                                       (202) 2085300
Washington, D. C. 20240


                                                      TDD for hearing impaired
                                                      (202) 2082420 or
                                                      l-800-354-0996



                    Outside the Continental United States

                                     Caribbean Retion

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                         (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 1-800-424-5081            w
 TDD l-800-354-0996        5
                           5
                           5
FITS/Commerciai Numbers:
 (202) 208-5300            i
 TDD (202) 208-2420        t


 HOTLINE !                 E
1849 C Stree& NW.
                           c
Mail Stop 5341
Washineton. D.C. 20240
